o

v

,1

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
cohtact@cocklelegalbriefs.com

Legal Briefs
Est. 1923

WebSite
www.cocklelegalbrieft.com

1-800-225-6964
(402)342-2831
Fax: (402) 342-4850

No.
ANTHONY FUTIA, Jr. and ROBERT L. SCHULZ,
Petitioners,
v.

WESTCHESTER COUNTY BOARD OF LEGISLATORS,
BENJAMIN BOYKIN, II, Chairman,
HARRISON TOWN BOARD, RON BELMONT, Supervisor,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 8509 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 15th day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State cf Nebraska
RENEE J. GOSS

My Comm. Exp. September 5,2023

Notary Public

V

Affiant

41446

